<html>
<title> - THE INTEGRATION OF UNMANNED AIRCRAFT SYSTEMS (UASs) INTO THE NATIONAL AIRSPACE SYSTEM (NAS): FULFILLING IMMINENT OPERATIONAL AND TRAINING REQUIREMENTS</title>
<body><pre>[Senate Hearing 111-1067]
[From the U.S. Government Publishing Office]





                                                       S. Hrg. 111-1067

                  THE INTEGRATION OF UNMANNED AIRCRAFT
               SYSTEMS (UASs) INTO THE NATIONAL AIRSPACE
                   SYSTEM (NAS): FULFILLING IMMINENT
                 OPERATIONAL AND TRAINING REQUIREMENTS

=======================================================================

                             FIELD HEARING

                               before the

       SUBCOMMITTEE ON AVIATION OPERATIONS, SAFETY, AND SECURITY

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 13, 2010

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation





<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>






                  U.S. GOVERNMENT PRINTING OFFICE
68-402 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           JOHNNY ISAKSON, Georgia
AMY KLOBUCHAR, Minnesota             DAVID VITTER, Louisiana
TOM UDALL, New Mexico                SAM BROWNBACK, Kansas
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
                 Ann Begeman, Republican Staff Director
             Brian M. Hendricks, Republican General Counsel
                  Nick Rossi, Republican Chief Counsel
                                 ------                                

       SUBCOMMITTEE ON AVIATION OPERATIONS, SAFETY, AND SECURITY

BYRON L. DORGAN, North Dakota,       JIM DeMINT, South Carolina, 
    Chairman                             Ranking Member
DANIEL K. INOUYE, Hawaii             OLYMPIA J. SNOWE, Maine
JOHN F. KERRY, Massachusetts         JOHN ENSIGN, Nevada
BARBARA BOXER, California            JOHN THUNE, South Dakota
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           GEORGE S. LeMIEUX, Florida
FRANK R. LAUTENBERG, New Jersey      JOHNNY ISAKSON, Georgia
MARK PRYOR, Arkansas                 DAVID VITTER, Louisiana
CLAIRE McCASKILL, Missouri           SAM BROWNBACK, Kansas
AMY KLOBUCHAR, Minnesota             MIKE JOHANNS, Nebraska
MARK WARNER, Virginia
MARK BEGICH, Alaska















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 13, 2010...............................     1
Statement of Senator Dorgan......................................     1

                               Witnesses

Representative Earl Pomeroy, Congressman from North Dakota.......     2
Hank Krakowski, CFO, Air Traffic Organization; Accompanied by 
  John Allen, Director, Flight Standards Service, Office of 
  Aviation Safety, Federal Aviation Administration...............     4
    Prepared statement...........................................     5
David Ahern, Director, Portfolio Systems Acquisition, Office of 
  the Under Secretary of Defense (Acquisition, Technology and 
  Logistics).....................................................     7
    Prepared statement...........................................     8
Major General Marke Gibson, Director of Operations, Deputy Chief 
  of Staff for Operations, Plans and Requirements, Headquarters 
  U.S. Air Force.................................................    10
    Prepared statement...........................................    12
Brigadier General L. Scott Rice, Co-Chairman, USAF/ANG National 
  Airspace and Range Executive Council, National Guard Bureau....    13
    Prepared statement...........................................    14

                                Appendix

Comments from Governor John Hoeven, Office of the Governor, State 
  of North Dakota, dated September 13, 2010, to the Senate 
  Subcommittee on Aviation Operations, Safety and Security 
  hearing on ``The Integration of Unmanned Aircraft Systems 
  (UASs) into the National Airspace System (NAS): Fulfilling 
  Imminent Operational and Training Requirements''...............    33
Response to written questions submitted by Hon. John Ensign to 
  Hank Krakowski.................................................    34

 
                  THE INTEGRATION OF UNMANNED AIRCRAFT
                    SYSTEMS (UASs) INTO THE NATIONAL
                   AIRSPACE SYSTEM (NAS): FULFILLING
             IMMINENT OPERATIONAL AND TRAINING REQUIREMENTS

                              ----------                              


                       MONDAY, SEPTEMBER 13, 2010

                               U.S. Senate,
        5Subcommittee on Aviation Operations, Safety, and 
            Security,
        Committee on Commerce, Science, and Transportation,
                                                   Grand Forks, ND.
    The Subcommittee met, pursuant to notice, at 8 a.m. in the 
Red River Valley Room of the Memorial Union, University of 
North Dakota, Grand Forks, North Dakota, Hon. Byron L. Dorgan, 
Chairman of the Subcommittee, presiding.

          OPENING STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. We will call the Committee hearing to 
order. Good morning to all of you. This is a formal hearing of 
the Commerce Committee of the U.S. Senate. I'm Senator Byron 
Dorgan, I chair the Aviation Subcommittee of the Commerce 
Committee. I'm joined by my colleague from the House side, Earl 
Pomeroy. Congressman Pomeroy is in town today and I invited him 
to join me at this hearing.
    The hearing is about the subject of unmanned aerial 
vehicles, and most particularly, the issue of training and 
operations for UAVs in this region. Grand Forks and this region 
of North Dakota is slated to become a major UAV center. We will 
have the Predators and the Global Hawks. We'll have fleets of 
Global Hawks and Predators stationed here at the Grand Forks 
Air Force Base. We have Homeland Security, which flies UAVs 
here. The University of North Dakota Center for Aerospace 
Science is designated by law and in the DOD descriptions as the 
center for UAV research. I did that because we fly unmanned 
aerial vehicles in all kinds of weather, and I had visited 
Nellis and Creach a number of times and discovered they do 
quite well when it's warm, flying over desert sand, but they'll 
be flying them in other areas of the country as well, and the 
world, and having a center for research of UAVs here, connected 
to the Air Force and the University of North Dakota, one of 
the--probably the preeminent aviation school in the world, just 
made a lot of sense.
    So, from that understanding, the question is, what kind of 
training capability exists in this region for the fleets of 
Unmanned Aerial Vehicles that will be here in the future? This 
really is an excellent location for perfecting and developing 
the rules and procedures necessary to allow unmanned aircraft 
to operate routinely in the national air space beside manned 
aircraft. We understand that there are commercial airlines and 
there's general aviation, and I have previously flown as well. 
We're not interested in doing anything that would in any way 
diminish safety in the skies for others who fly in those skies.
    At the same time, we also understand that UAVs are going to 
be a significant part of our future and the opportunity to work 
collectively to find ways to operate them safely in the 
airspace of our country is very, very important.
    Here at the University of North Dakota, at the Center for 
Research for UAVs, there's a lot of work going on, on sensitive 
technologies and radar and so on, on just this very subject. 
About a year ago, February 16, 2009, we met in this room, not 
in a hearing, but in a roundtable discussion, and we had a very 
substantial discussion about what needed to be done and the 
timelines to do it, in which to create routine training and 
operation capability for UAVs here in this region. We had the 
Air Force and the FAA talk about creating a working group, and 
from that meeting, a working group was created and has been 
working between then and now.
    One of the reasons I wanted to have this hearing is to try 
to understand where are we with this working group, have we met 
time deadlines or time sensitive needs in order to get to where 
we want to be? And if not, how do we begin to meet those 
requirements? The FAA has one set of responsibilities and the 
Air Force another, and yet merging both in an understanding 
that what we need and what we can do to provide at the same 
time that we train and provide operational capability for UAVs, 
we can and will assure that there is safety in the national 
airspace, that it is not diminished at all as a result of this 
integration.
    So that's the purpose of this hearing, to try to understand 
what has happened since February of last year, what's going to 
happen going forward, and what can we expect for the capability 
of the Air Force and the FAA to reach agreement on the 
capability and training that we know is going to be necessary 
here when we get fleets of Predators and Global Hawks.
    Let me call for a brief moment on my colleague, Congressman 
Pomeroy, for an opening statement. We have witnesses that I 
will then describe and we'll proceed. Congressman Pomeroy, 
thank you for being here.

  STATEMENT OF REPRESENTATIVE EARL POMEROY, CONGRESSMAN FROM 
                          NORTH DAKOTA

    Representative Pomeroy. Thank you, Mr. Chairman, I'll be 
very brief. Thank you for bringing your Subcommittee here. 
Thank you for your leadership, Senator, on basically the focus 
this area has shown on the UAV technology. I'm still wrestling 
the various acronyms, whether we call them UAVs for purposes of 
this hearing, whether we call them remote-piloted aircraft, 
whatever we call them, we are, I think, focused like no other 
place in the country, bringing together a variety of assets 
that we have here, the Air Force Base, the University and an 
awful lot of open sky, to have a sustained focused area that 
this 21st Century flight technology, which will be broadly 
incorporated into how this Nation functions by the end of the 
century. We are on the cutting edge and we intend to flesh it 
out.
    You know, 19 months have passed since the productive launch 
we had of these discussions in this room. I don't see an awful 
lot of accomplishment for it. It looks to me like we're kind of 
at a standoff where the Air Force is not really allowed to 
operate these things in an integrated Air Force capacity. And 
by the way, a request for a restricted airspace isn't going 
anywhere. And so, to me it's a Catch-22, it has got things 
pretty well locked in place.
    So I--Senator, I'm very pleased that you convened this 
hearing today, and we look forward to seeing what--maybe 
there's more underneath the surface than I'm aware of, but I 
think this thing needs a good solid shove to get things back on 
track.
    Thank you, Senator.
    Senator Dorgan. Thank you very much. It is the case that 
not enough progress has been made, and the question is, how 
will more progress be made in the future and what can we 
expect, and that's the purpose of calling this meeting. I would 
not have had a hearing had I felt that we were on track, that 
there is a required urgency to it, and that we would meet 
expectations. But because that has not been the case, I wanted 
to have this hearing to put on the formal record these matters.
    And I recognize this is not the easiest thing in the world 
to do. I recognize there are very substantial issues here, but 
we need to solve this, and it's going to require, I think, some 
real focus to do so.
    We are joined by Mr. Hank Krakowski, the Chief Operating 
Officer of the Air Traffic Organization of the FAA. He is 
accompanied by Mr. John Allen, Flight Standards Service at the 
FAA. David Ahern is the Director of Portfolio Systems 
Acquisition at the Office of the Secretary of Defense. Major 
General Marke Gibson, Director of Operation at the Air Force. 
And Brigadier General Leon Scott Rice, Co-Chairman of the Air 
Force and Air National Guard National Airspace and Range 
Executive Council. Let me say that again, National Airspace and 
Range Executive Council of the National Guard Bureau.
    We appreciate all of you coming and appreciate the fact 
that I started this hearing early, and that's because it turns 
out the U.S. Senate, which is not the best planning unit in 
America, decided to have votes this afternoon. And so, I'll 
have to be on an airplane to go back and cast votes, and your 
willingness to get up at 8 in the morning is appreciated.
    Mr. Krakowski, you were with us a year and a half ago in 
this room. Let me ask all of you, if I might, to say--I would 
say that your entire record--your entire statement will be part 
of the permanent record, and I will ask you to summarize your 
testimony.
    Why don't we begin with you, Mr. Krakowski, on behalf of 
the FAA. If you can tell us where we've been, where we're 
going, and what we can expect from the FAA.

         STATEMENT OF HANK KRAKOWSKI, CFO, AIR TRAFFIC

       ORGANIZATION; ACCOMPANIED BY JOHN ALLEN, DIRECTOR,

      FLIGHT STANDARDS SERVICE, OFFICE OF AVIATION SAFETY,

                FEDERAL AVIATION ADMINISTRATION

    Mr. Krakowski. Senator Dorgan, Congressman Pomeroy, thank 
you for asking the FAA to testify here today. I will be 
speaking on the air traffic issues involving these issues. John 
Allen is here to talk about flight standards, safety, and air 
worthiness issues.
    Senator Dorgan. Would you pull that microphone closer to 
you?
    Mr. Krakowski. I'd be happy to do that.
    Senator Dorgan. Thank you.
    Mr. Krakowski. The airspace is somewhat of a national 
treasure, as being part of the FAA, our job is to be stewards 
of that. So, as we make changes to the airspace, we want to 
make sure that we do it methodically with all interests, 
including DOD, DHS, commercial aviation, and general aviation. 
As you said, they have some equities around it. So, that is a 
key issue for us.
    We've made a lot of progress. Right now, today as we sit 
here, we have 251 certificates of authorization for unmanned 
aircraft, 140 of them are DOD related. We have not rejected or 
denied any DOD COAs in 2010, and we keep moving forward. We've 
been doing a lot of interesting things in 2010. We supported 
the Gulf oil spill, the Red River flooding a year ago, and the 
Haitian earthquake relief operations. We've got some very 
innovative things going on with the Army in El Mirage, 
California. We hope to have our first test bed for ground-based 
sense and avoid in military operations. So, we're moving as 
quickly as we feel we can, to make things happen.
    It should be noted, as you said Senator, that we are 
currently flying operational missions with unmanned aircraft 
out of Grand Folks with the Customs and Border Patrol, and 
those are typically daily missions, weather permitting. We have 
the tools and the techniques available to allow additional 
unmanned aircraft operations today, if the machines were 
available and ready to fly. We think we can use the same 
techniques that we did with Customs and Border Patrol to make 
that happen.
    The issue that we do have to work--that's going to take 
some time--is the restricted area, which has been requested, 
south of Devil's Lake area. And that's going to take a 
regulatory change, because it is public airspace that we have 
to transform into restricted airspace. We don't do a lot of 
that in this country. The restricted areas that exist have been 
there typically for a long time and they've been quite useful. 
To create new restricted airspace for hazardous operations, 
which is the request, does take a process of regulatory change, 
which includes public comment.
    We've been told that we can expect the concept of 
operations from the Air National Guard, as well as the safety 
study, which are the two basic requirements to begin working 
toward that regulatory change, at the end of the month. From 
that point forward, in order to create the actual restricted 
airspace would take one to two years to go through the whole 
public comment period and everything that we need to do, and 
that's fairly typical. But, by using COAs and temporary flight 
restrictions, we do think that we will be able to start 
operations immediately once the machines become available and 
the staff is in place to start flying, even before that process 
is complete. So, if it takes 2 years to get the restricted area 
done, there's no reason that we couldn't start flight 
operations before that process is over.
    We have to do this deliberatively. These are unusual 
vehicles to enter into the national airspace system. They were 
designed for the war theater. And as you know, this is an 
environment with a multitude of different types of aircraft 
that we have to deal with. So, we want to be careful, we want 
to be measured, we want to make sure that we have all the 
necessary stakeholders onboard with the plan going forward. 
That includes airline pilots, AOPA, and all the different 
constituents and we're prepared to do that.
    But, one of the real positive things, as we now have in 
ExCom or an Executive Committee, which David and I serve on, to 
help be a forcing function to move these issues faster and to 
move them more efficiently through the system. In our opinion, 
over the last 2 years, we've learned a lot. We've learned how 
to work with each other better, and I think as time goes on, 
we'll be able to have a more accelerated, better working 
relationship to move these things faster and more efficiently 
than we have in the past. So, it's a learning process, it's a 
new type of vehicle which has certain limitations that we have 
to account for. The FAA is required to do this in a measured 
fashion.
    Thank you.
    [The prepared statement of Mr. Krakowski follows:]

 Prepared Statement of Hank Krakowski, CFO, Air Traffic Organization; 
 Accompanied by John Allen, Director, Flight Standards Service, Office 
          of Aviation Safety, Federal Aviation Administration
    Chairman Dorgan, Senator Conrad, Congressman Pomeroy:

    Thank you for inviting the Federal Aviation Administration (FAA) to 
this hearing. Accompanying me today is John Allen, Director of the 
Flight Standards Service in the Office of Aviation Safety at the FAA. 
Together, we have distinct yet related duties in carrying out the FAA's 
mission to ensure the safety and efficiency of the National Airspace 
System (NAS). Mr. Allen's organization is charged with setting and 
enforcing the safety standards for aircraft operators and airmen. My 
role as the head of the Air Traffic Organization is to oversee the 
Nation's air traffic control system, to move flights safely and 
efficiently, while also overseeing the capital programs and the 
modernization of the system.
    As the most complex airspace in the world, the NAS encompasses an 
average of over 100,000 aviation operations per day, including 
commercial air traffic, cargo operations, business jets, etc. 
Additionally, there are over 238,000 general aviation aircraft that 
represent a wide range of sophistication and capabilities that may 
enter the system at any time. There are over 500 air traffic control 
facilities, more than 12,000 air navigation facilities, and over 19,000 
airports, not to mention the thousands of other communications, 
surveillance, weather reporting, and other aviation support facilities. 
With this volume of traffic and high degree of complexity, the FAA 
maintains an extremely safe airspace through diligent oversight and the 
strong commitment to our safety mission.
    With regard to unmanned aircraft systems (UAS), the FAA sets the 
parameters for where a UAS may be operated and how those operations may 
be conducted safely in the NAS. Our main focus when evaluating UAS 
operations in the NAS is to avoid any situations in which a UAS would 
endanger other users of the NAS or compromise the safety of persons or 
property on the ground. The FAA acknowledges the great potential of 
UASs in national defense and homeland security, and as such, we strive 
to accommodate the needs of the Department of Defense (DOD) and 
Department of Homeland Security (DHS) for UAS operations, always with 
safety as our top priority.
    When new aviation technology becomes available, we must determine 
if the technology itself is safe and that it can be operated safely. 
Whether the technology is to be used by pilots, operators or air 
traffic controllers, we determine the risks associated with putting 
that technology into the NAS. Once the known risks are mitigated, we 
move forward with integration in stages, assessing safety at each 
incremental step along the way. Unforeseen developments, changing 
needs, technological improvements, and human factors all play a role in 
allowing operations within the civil airspace system.
    The FAA is using this same methodology to manage the integration of 
the new UAS technology into the NAS. While UASs offer a promising new 
technology, the limited safety and operational data available to date 
does not yet support expedited or full integration into the NAS. 
Because current available data is insufficient to allow unfettered 
integration of UASs into the NAS--where the public travels every day--
the FAA must continue to move forward deliberately and cautiously, in 
accordance with our safety mandate.
    Because the airspace is a finite resource, and in order for us to 
carry out our safety mission, the FAA has developed a few avenues 
through which UAS operators may gain access to the NAS. First, the FAA 
has a Certificate of Waiver or Authorization (COA) process. This is the 
avenue by which public users (government agencies, including Federal, 
state, and local law enforcement, as well as state universities) that 
wish to fly a UAS can gain access to the NAS, provided that the risks 
of flying the unmanned aircraft in the civil airspace can be 
appropriately mitigated. Risk mitigations required to grant a COA 
frequently include special provisions unique to the requested type of 
operation. For example, the applicant may be restricted to a defined 
airspace and/or operating during certain times of the day. The UAS may 
be required to have a transponder if it is to be flown in a certain 
type of airspace. A ground observer or accompanying ``chase'' aircraft 
may be required to act as the ``eyes'' of the UAS. Other safety 
enhancements may be required, depending on the nature of the proposed 
operation.
    The FAA may also set aside airspace for an operator's exclusive use 
to segregate the dangerous activity or protect something on the ground, 
when needed. Some of these exclusive use areas are known as Restricted, 
Warning or Prohibited Areas. The DOD conducts most of its training in 
such airspace. In order to set aside Restricted or Prohibited Area 
airspace, the FAA would need to undertake rulemaking to define the 
parameters of that airspace. This is typically a time-consuming process 
that would also include environmental reviews that could impact the 
proposed airspace.
    Civil UAS operators must apply for a Special Airworthiness 
Certificate--Experimental Category to gain access to the NAS. This 
avenue allows the civil users to operate UAS for research and 
development, demonstrations, and crew training. The Special 
Airworthiness Certificate--Experimental Category does not permit 
carriage of persons or property for compensation or hire. Thus, 
commercial UAS operations in the U.S. are not permitted at this time.
    We are working with our partners in government and the private 
sector to advance the development of UAS and the ultimate integration 
into the NAS. First, in accordance with Section 1036 of the Duncan 
Hunter National Defense Authorization Act (NDAA) for Fiscal Year 2009, 
Public Law 110-417, the DOD and FAA have formed an Executive Committee 
(ExCom) to focus on conflict resolution and identification of the range 
of policy, technical, and procedural concerns arising from the 
integration of UASs into the NAS. Other ExCom members include DHS and 
the National Aeronautics and Space Administration (NASA) to capture 
more broadly other Federal agency efforts and equities in the ExCom. 
The mission of this multi-agency UAS ExCom is to increase, and 
ultimately enable routine, access of Federal public UAS operations in 
the NAS to support the operational, training, developmental, and 
research requirements of the member agencies. All of these partner 
agencies are working to ensure that each department and agency is 
putting the proper focus and resources to continue to lead the world in 
the integration of UAS.
    The ExCom's work has also facilitated the work of the Red River 
Task Force (RRTF), the interagency working group that was established 
to work on issues regarding the basing of UAS at Grand Forks Air Force 
Base (RDR). With the ExCom's work and the RRTF's work running in 
parallel, the FAA is able to support more easily and fully the DOD's 
needs at RDR. One of the RRTF's first tasks was to establish two 
separate tracks for DOD's goals at RDR: one would be an aeronautical 
proposal that would involve establishment of a new restricted area(s), 
while the other would be a broader menu of operational options that 
could be used either as a stand-alone solution or as a layered approach 
for the operation of UASs at RDR. We have done this in numerous places 
and continue to streamline the approval process.
    Currently, the FAA is working with the DOD to determine and 
evaluate the scope and details of its operational needs at RDR. In 
addition, the RRTF has examined 18 option sets that can provide short, 
mid- and long-term solutions to UAS NAS access at RDR. The FAA 
continues to be committed to working with the DOD on matters relating 
to UAS operations at RDR in a manner consistent with our safety 
mission.
    Unmanned aircraft systems are a promising new technology, but one 
that was originally and primarily designed for military purposes. 
Although the technology incorporated into UASs has advanced, their 
safety record warrants caution. As we attempt to integrate these 
aircraft into the NAS, we will continue to look at any risks that UASs 
pose to the traveling public as well as the risk to persons or property 
on the ground. As the agency charged with overseeing the safety of our 
skies, the FAA seeks to balance our partner agencies' security, 
defense, and other public needs with the safety of the NAS. We look 
forward to continuing our work with our partners and the Congress to do 
just that.
    Chairman Dorgan, Senator Conrad, Congressman Pomeroy, this 
concludes our prepared remarks. We would be pleased to answer any 
questions you might have.

    Senator Dorgan. All right, Mr. Krakowski, thank you very 
much.
    Next, we'll hear from David Ahern, the Director of 
Portfolio Systems Acquisition at the Secretary of Defense 
Office.
    Mr. Ahern?

         STATEMENT OF DAVID AHERN, DIRECTOR, PORTFOLIO

       SYSTEMS ACQUISITION, OFFICE OF THE UNDER SECRETARY

      OF DEFENSE, (ACQUISITION, TECHNOLOGY AND LOGISTICS)

    Mr. Ahern. Good morning, Chairman and Congressman Pomeroy, 
thank you very much for the opportunity to be here today. I 
really do appreciate it. I think as Mr. Krakowski said, it's 
going to be a learning opportunity for us, as we press forward 
in addressing the requests for airspace access.
    As was mentioned earlier, I have submitted the written 
testimony. As a summary to where I stand or where my role is, 
as one of the members of the ExCom with Mr. Krakowski, we have 
stood up the ExCom, and we have the access plan completed by 
the working group in review now. We expect to deliver in 
accordance with the legislation, next month, in October. It has 
been done collaboratively between the FAA and the other two 
members of the ExCom: DHS, who has signed off on it, and NASA. 
We're in the review process now. I have reviewed it. It's a 
good document. It has both the framework for moving forward to 
gain access to the airspace in a measured and responsive way, 
as Mr. Krakowski mentioned. And then there is a second part of 
it, which is a DOD site transition plan, which indicates the 
kinds of UASs that we're going to want to operate: the Army, 
Navy, the Air Force, and the Marines. In many of the states in 
the United States, as we go forward between now and 2015, so I 
think that you will find it a comprehensive document that shows 
where we are, how we're going to move forward with the FAA 
toward the airspace access, and then where across the country 
the Army, Navy, Air Force, and Marines are going to be basing 
their UASs and have need of training.
    And as you may be aware, the Department, and the FAA signed 
a Memorandum of Agreement in 2007 that initiated this process. 
That was followed in the Department with a stand up of a UAS 
Task Force, which I chair, and that's the reason that I'm one 
of the DOD members of the ExCom. One of my roles as the Chair 
of the UAS Task Force, which was set up with a number of 
different purposes, one of which very definitely is that we get 
airspace access. And we have been working on that--in that area 
toward, again, the measured process through the framework, 
which includes, as Mr. Krakowski mentioned, at El Mirage that 
we now have a COA in the operating area for--based on ground 
surveillance--the search--I'm having a moment here--but the 
ground-based--sense and avoid, which is a first step. And we're 
looking forward in other areas along that same way, the ground-
based sense and avoid. There's a Marine base in North Carolina, 
Cherry Point which is looking to do the same. The Air Force has 
a same sort of process, at Cannon Air Force Base on that 
technology, as we move forward. As I said, I think that this 
opportunity here at Grand Forks to work toward solution to the 
request for the airspace is very important to us.
    I would close with saying that we have made significant 
progress in establishing a working relationship through the 
ExCom, and as we go forward, I expect that we will move in that 
area in a measured way, to ensure that we are able to afford 
the operators, the pilots of the UASs, the opportunity that 
they're going to need in the United States to do the training 
in support of their combat mission, while also ensuring that we 
are operating safely in the airspace.
    Thank you very much, sir. I'm ready for questions.
    [The prepared statement of Mr. Ahern follows:]

    Prepared Statement of David Ahern, Director, Portfolio Systems 
  Acquisition, Office of the Under Secretary of Defense (Acquisition, 
                       Technology and Logistics)
    Senator Dorgan, Senator Conrad, Congressman Pomeroy, and 
distinguished guests: thank you for the opportunity to update you and 
the people of North Dakota on the progress of the UAS Executive 
Committee's efforts to advance the integration of Unmanned Aircraft 
Systems into national airspace.
    As you are aware, Section 1036 of the 2009 Duncan-Hunter National 
Defense Authorization Act, the U.S. Congress recommended that the DOD 
and the FAA form an Executive Committee (ExCom) to act as a focal point 
for resolution of issues on matters of policy and procedures relating 
to UAS access to the National Airspace System (NAS). The sense of 
Congress was that progress has been lagging in the integration of UAS 
into the NAS for operational training, operational support to the 
Combatant Commanders, and support to domestic authorities in 
emergencies and natural disasters. Additionally, the NDAA language 
suggested that techniques and procedures should be rapidly developed to 
temporarily permit the safe operation of public UAS within the NAS 
until more permanent solutions can be developed or identified.
The UAS Executive Committee (ExCom)
    In response to the 2009 NDAA language, the Deputy Secretary of 
Defense and the Deputy Secretary of Transportation agreed to form a 
multi-agency executive committee to:

        1. Act as a focal point for the resolution of pertinent UAS 
        issues between the DOD and the FAA; and

        2. Identify solutions to the range of technical, procedural, 
        and policy concerns arising in the integration of UAS into the 
        NAS.

    In addition, the Deputy Secretaries agreed to expand the membership 
of the Executive Committee to include the Department of Homeland 
Security and the National Aeronautics and Space Administration, which 
after DOD, represent the two largest stakeholders in Federal UAS 
operations.
    Membership in the ExCom consists of two representatives each from 
the Department of Defense and the Federal Aviation Administration, and 
one representative each from the Department of Homeland Security and 
NASA. DOD representation consists of the executives from of the two 
major organizations charged with oversight of UAS issues: The DOD 
Policy Board on Federal Aviation, represented by Acting Executive 
Director Steven Pennington, and the OUSD UAS Task Force, which I chair.
    The first meeting of the ExCom was in October of last year, and we 
have continued to meet approximately bi-monthly since. One of our first 
tasks was to create a Charter to outline how we are organized and how 
we would coordinate our efforts and report on progress. I'm pleased to 
report that Charter has been finalized and is currently being signed by 
the Deputy Secretaries of the three departments, as well as the NASA 
Administrator. Contained in that Charter are the four key goals of the 
ExCom:

        Goal 1. Coordinate and align efforts among key Federal 
        Government agencies (FAA, DOD, DHS, and NASA) to ultimately 
        achieve routine safe Federal public UAS operations in the 
        National Airspace System.

        Goal 2. Coordinate and prioritize technical, procedural, 
        regulatory, and policy solutions needed to deliver incremental 
        capabilities.

        Goal 3. Develop a plan to accommodate the larger stakeholder 
        community, at the appropriate time.

        Goal 4. Resolve conflicts among Federal Government agencies 
        (FAA, DOD, DHS, and NASA), related to the above goals.

    With our goals identified, we of course have not waited on Charter 
signature to begin work. At our very first meeting, we stood up a 
Senior Steering Group to manage the activities of the ExCom, primarily 
through the establishment of Working Groups that are chartered to 
tackle specific issues that relate to increased NAS access for Federal 
public UAS. To date, two Working Groups have been established: The 
first Working Group is tasked to improve the FAA's Certificate of 
Authorization (CoA) process that authorized UAS flight in national 
airspace; and the second Working Group is charged with creating a 
National Airspace Access Plan for Federal public UAS.
    While there is significant work being done to both optimize the CoA 
process, and to minimize the operational restrictions that encumber UAS 
operations conducted under CoAs, you asked specifically for an update 
on the National Airspace Access Plan. I will thus focus the remainder 
of my statement on that plan.
The ExCom NAS Access Plan
    The NAS Access Working Group was initiated by the ExCom SSG in 
December of 2009, and first met in late February of this year. Since 
then, they have worked to develop a process by which the ExCom member 
agencies will first identify and prioritize their access requirements; 
and subsequently how the NAS Access Working Group will analyze those 
requirements to determine viability and applicability of potential 
approaches to address them. That process has been captured in a joint 
NAS Access Plan that is designed to address the requirements laid out 
by Congress in Section 935 of the 2010 NDAA. That Plan is tasked to the 
Secretaries of Defense and Transportation, and was tasked to include:

        1. A description of how the DOD and FAA will work together to 
        expand NAS access for UAS;

        2. Milestones for expanded access, and a Transition Plan for 
        DOD UAS sites programmed for 2010-2015;

        3. Policy recommendations for UAS access policies, standards, 
        and procedures; and

        4. The resources required to execute the above.

    Task 1 was addressed through the creation of the ExCom, as reported 
to Congress in April of this year. The remaining tasks were designed to 
be captured in the NAS Access Plan, or the separate Department of 
Defense Transition Plan. Both of these documents will be finalized and 
submitted to Congress in October of this year.
    The NAS Access Plan is a joint document, submitted to Congress by 
the Department of Defense on behalf of the Departments of Defense and 
Transportation. The Plan was reviewed and coordinated with the 
Department of Homeland Security. As previously mentioned, the NAS 
Access Plan is largely process-focused, providing a ``roadmap'' of how 
the ExCom member agencies will work together to identify and address 
common NAS access requirements for Federal Public UAS. The Plan also 
contains joint recommendations from member agencies for specific 
policy, regulatory, procedural, and technological approaches to 
addressing the increasing needs for access on a permanent basis.
    The NAS Access Plan also includes a recommendation from the 
Department of Defense to establish a broad-based framework that 
categorizes groups of airspace needs into potential solution sets. This 
framework is currently being adopted by the DOD, and forms the basis 
for the Department's own Airspace Integration Plan.
    Partnered with the NAS Access Plan is the DOD Site Transition Plan, 
which describes the Department of Defense's intended implementation of 
NAS access approaches at bases that have existing or programmed UAS 
activities between now and 2015. Also based on the DOD's common 
airspace integration framework, the Site Transition Plan identifies the 
required level of capability, the planned approach, and the intended 
implementation of UAS NAS access at over a hundred locations across the 
US. The Site Transition Plan is currently being coordinated with the 
Services for validation of locations, priorities and timelines, and we 
expect to have it finalized in early October.
    It is important to note that the schedule contained in the DOD Site 
Transition Plan is greatly dependent upon the rapid approval and 
adoption of policies, regulations, procedures, and technology to meet 
the NAS access requirements identified by the ExCom member agencies. 
Without rapid progress on NAS Access Plan initiatives, the milestones 
contained in the Site Transition Plan entail significant schedule risk.
Conclusion
    In closing Mr. Chairman, I'm pleased to report steady progress in 
the advancement of NAS access for Federal public UAS. The establishment 
of the ExCom, and subsequent work by its Senior Steering Group and 
associated Working Groups, has already borne fruit in greatly improved 
relationships and communication at the appropriate levels of each 
member Department or agency. We have seen measurable improvement in 
many existing UAS access process, and look forward to upcoming 
reductions in some of the operational restrictions placed on UAS today. 
The creation of the NAS Access Plan, and accompanying DOD Site 
Transition Plan, represents a significant milestone in inter-agency 
cooperation. While we recognize that there is much work to be done, the 
outlook for improvement in routine NAS access has never been brighter.
    Thank you for the opportunity to testify before the Committee. I 
would be happy to answer any questions you and the members of the 
Committee may have.

    Senator Dorgan. Mr. Ahern, thank you very much.
    Major General Marke Gibson. General Gibson, is your title 
just Director of Operations, Air Force?
    Major General Gibson. Sir, it's Director of Current 
Operations and Training----
    Senator Dorgan. Thank you.
    Major General Gibson.--at the Headquarters Air Force.
    Senator Dorgan. You may proceed.

            STATEMENT OF MAJOR GENERAL MARKE GIBSON,

         DIRECTOR OF OPERATIONS, DEPUTY CHIEF OF STAFF

 FOR OPERATIONS, PLANS AND REQUIREMENTS, HEADQUARTERS U.S. AIR 
                             FORCE

    Major General Gibson. Sir, with your indulgence, I have 
prepared comments to begin my testimony.
    Senator Dorgan. Yes.
    Major General Gibson. Chairman Dorgan, Representative 
Pomeroy, and members of the Subcommittee, I thank you for this 
opportunity to speak with you today on this matter of pressing 
military and national concern and for today's purpose, remotely 
piloted aircraft.
    I must first express my personal thanks and that of both my 
Air Force Secretary Donnelly and Chief Schwartz, to you and 
your staffs for your unwavering support of the basing of Global 
Hawk and Predator in North Dakota. As you are aware, both of 
these systems are critical to our operations in Iraq and 
Afghanistan. And as we speak, the men and women of the North 
Dakota Air National Guard are flying Predators and providing 
our commanders with invaluable intelligence and combat 
capability from here in North Dakota.
    RPAs are now playing and will continue to play a key role 
in our Nation's defense and homeland support missions. These 
systems were developed over the last 15 years, with now over 1 
million hours of operations, of technology--involving 
technology development and operational experience, all the 
while held to the same exacting Air Force safety standards of 
manned aircraft.
    Since 9/11, the Air Force RPA experience has been one born 
of necessity. The majority of our experience and program 
development has resulted directly from combat operations in 
Iraq and Afghanistan. That experience has produced the most 
accomplished and combat-capable RPA force in the world. In our 
support to the war fighter, the Air Force has been successful 
in providing training opportunities and operating airspace at 
selected sites. Our challenge now, as we expand and normalize 
RPA force, is to provide our RPA operators local training 
environments that will sustain and hone their skills as they 
remain available for both defense and homeland support missions 
at a moment's notice. Concurrently, this will enable us to 
drive the technology and further improve safety.
    Historically, new weapon systems have been developed and 
matured in parallel with the test and training space required 
to support that development. This is currently progressing in 
such a way with the F-35 and F-22. But as you know, this was 
not the case with RPAs due to the fundamental disconnect 
between unmanned system and FAA guidance and policy that 
couldn't have anticipated such a technological leap. As we have 
seen in the RQ-4 Global Hawk at Beale Air Force Base and MQ-1 
Predator at Cannon Air Force Base, hard work and cooperation 
between the Air Force and the Federal Aviation Administration 
has shown progress in providing access for RPAs to special use 
air space and the national airspace system. Nonetheless, I 
believe we all agree that collectively we have not achieved the 
normalized and routine access that was envisioned at the 
February 2009 Grand Forks meeting and that underpins the 
mission of the Red River Operations Workgroup.
    Since then, the Air Force has worked with the FAA to 
develop new models of operations that challenge convention and 
explore procedural options and leverage technology. Everyone 
understood it was a difficult task and that old paradigms were 
subject to challenge. To that end, the Air Force in cooperation 
with the University of North Dakota, the National Air and Space 
Administration, the Air Force Weather Agency, and others, have 
diligently provided significant amounts of data and research to 
support the effort. As a result, the area west of Grand Forks 
Air Force Base is perhaps the most completely and accurately 
characterized airspace for developing testing RPA access to the 
NAS.
    Admittedly, with any new endeavor, there has been no 
shortage of challenges. The original vision that would enable 
independent operations in a military operating area, without 
technical mitigation, is not currently available. It is evident 
that the technology component of a solution would require 
additional years of analysis and could still provide a less 
than optimum operating environment for training. It is our 
recommendation therefore, that a baseline certification of air 
traffic control radars for separation, combined with the 
analysis and other mitigations captured by the workgroup, be a 
first step. The goal is to provide North Dakota with an 
exceptional degree of access to non-segregated airspace. 
However, in the interim, we recommend a solution based on the 
current tools we have, such as restricted airspace.
    The current aeronautical proposal of restricted airspace, 
designed for climb and transit to airspace over Camp Grafton, 
we think meets safety requirements and is compatible with MQ-1 
performance and given your North Dakota weather.
    Over the last 2 years, working with the FAA's Minneapolis 
Center on Central Service Area, this proposed airspace was 
voluntarily scaled back by us to the minimum required to 
support the basic MQ-1 pilot and sensor training. This 
reduction balances Air Force training requirements with FAA 
policy and minimizes the impact to other aviation assets. It 
should also be noted that it contains a sunset provision to 
divest the climb and transit airspace as soon as other 
technical means are introduced, such as our ground-based sense 
and avoid efforts. This aeronautical proposal is partly through 
the rulemaking progress, and if given priority, could be ready 
for flight operations somewhere around January of 2012.
    In closing, your Air Force recognizes that RPA technology 
has, and will continue to play, a key role in our Air Force's 
efforts to help defend a nation and our ability to respond to 
emergencies. In fact, 35 percent of our aircraft acquisition 
over the next 5 years is programmed to be unmanned. We have, 
and will remain, dedicated to safe RPA operations as we 
continue to develop the technology and our operational 
concepts. We look forward to working with the FAA, the Air 
National Guard, and our political leadership to enable RPA 
operations now and into the future.
    Thank you, I look forward to questions.
    [The prepared statement of Major General Gibson follows:]

     Prepared Statement of Major General Marke Gibson, Director of 
      Operations, Deputy Chief of Staff for Operations, Plans and 
               Requirements, Headquarters U.S. Air Force
    Chairman Dorgan, Ranking Member DeMint, distinguished members of 
the Subcommittee; I am grateful for the opportunity to appear before 
you today to discuss an issue of true National Security, the 
integration of remotely piloted aircraft (RPAs) into the National 
Airspace. The Air Force is working diligently to advance standardized, 
procedural and technical solutions that provide all families of RPAs 
safe and routine access to the National Airspace System.
    Following 9/11, these aircraft were rushed to war and the vast 
majority of our experience and program development has resulted from 
combat operations in Iraq and Afghanistan. That experience has produced 
the most accomplished and combat capable RPA force in the world. In our 
effort to support the warfighter, the Air Force has been successful in 
providing training opportunities and operating space at selected sites. 
Our challenge now, as we expand and normalize the RPA force, is to 
provide these battle-tested operators local and regional test and 
training environments that will sustain and hone that combat edge so 
they remain available to our Combatant Commanders at a moment's notice. 
Concurrently, this will enable us to drive technology and improve 
safety.
    Historically, new weapon systems have been developed and matured in 
parallel with the test and training space required to support the 
mission. That is currently progressing in such a way with the F-35 and 
F-22. Progress toward access for unmanned systems has been slower. As 
we have seen with the RQ-4 Global Hawk at Beale AFB and MQ-1 Predator 
at Cannon AFB, hard work and cooperation between the Air Force and 
Federal Aviation Administration has shown progress, in providing access 
for RPAs to Special Use Airspace and the National Airspace System. 
Nonetheless, I believe we all agree that collectively we have not 
achieved the normalized and routine access that was envisioned at the 
February 2009 Grand Forks meeting and underpins the mission of the Red 
River Operations Workgroup.
    Since the 2009 Grand Forks meeting, the Air Force has worked with 
the FAA to develop new models of operations that challenge convention, 
explore procedural options, and leverage technology. Everyone 
understood it was a difficult task and that old paradigms were subject 
to challenge. To that end, the Air Force, in cooperation with the 
University of North Dakota, the National Air and Space Administration, 
the Air Force Weather Agency, and others, has diligently provided 
significant amounts of data and research to support the effort. As a 
result, the area west of Grand Forks Air Force Base is perhaps the most 
completely and accurately characterized airspace for developing 
processes and technologies that enable routine RPA access.
    Admittedly, as with any new endeavor, there have been delays and 
difficulties. Air Force and Air National Guard struggled with 
completing a Concept of Employment document. Used elsewhere in efforts 
to provide RPAs limited access to the National Airspace System, this 
document, by its nature and intent, relies on detailed descriptions and 
implementation strategies of mitigations and methodologies designed to 
achieve access at a specified location. In Grand Forks, our direction 
was to explore a wide range of solution sets and provide near term 
alternatives for effective training; as such, the Concept of Employment 
does not fit easily in that paradigm. We have delivered final draft to 
the FAA and continue to work with them and Air National Guard to craft 
a final product that meets the technical demands as well as the spirit 
of the Red River effort.
    It has become apparent that the original vision for a wide-area 
solution that would enable independent operations in Military Operating 
Areas without technical mitigations is not immediately available. The 
technology components of the solution set routinely require years of 
analysis and provide an operating environment that is less than optimum 
for training. It is our recommendation that a system-wide, baseline 
certification of Air Traffic Control Radars for separation assurance 
combined with the data, analysis and other mitigations captured by the 
workgroup will provide North Dakota an exceptional degree of access to 
non-segregated airspace.
    In the interim, there are a number of promising options that 
provide a target level of safety. We are exploring these options with 
the FAA.
    We will continue to work with the Federal Aviation Administration, 
the Air National Guard and our political leaders to enable Remotely 
Piloted Aircraft operations throughout North Dakota.
    This proposed standardized and templated solution for Air Force 
access to airspace in North Dakota represents an important step toward 
meeting the eventual needs of education, commercial and other 
governmental organizations as unmanned capabilities continue to expand.
    Thank you for the opportunity to be here today. I look forward to 
your questions.

    Senator Dorgan. General Gibson, thank you very much.
    And finally we'll hear from Brigadier General Leon Scott 
Rice, Co-Chairman of the USAF and Air National Guard Airspace 
and Range Executive Council.
    General Rice, thank you for being with us.

         STATEMENT OF BRIGADIER GENERAL L. SCOTT RICE,

       CO-CHAIRMAN, USAF/ANG NATIONAL AIRSPACE AND RANGE

            EXECUTIVE COUNCIL, NATIONAL GUARD BUREAU

    Brigadier General Rice. Chairman Dorgan, thank you, as 
well, and Representative Pomeroy, I thank you for this 
opportunity to provide a few remarks on behalf of all those 
serving in the Air National Guard.
    I'd like to really start with my sincere appreciation of 
what you two have done for the Air National Guard. Your recent 
visit, sir, this past spring to the deployed Guardsman in 
Kosovo has been tremendous. Sir, your support in 2005 of that 
Iraqi soldier that provided defense for our own Guardsman at 
risk of his own life was breathtaking. So, we're pretty 
impressed with your support of the Air National Guard and the 
National Guard in general, and, as you know, citizens within 
our own community.
    The Air National Guard anchors the Total Force team though, 
proving trained and equipped personnel to protect domestic life 
and property, preserve peace and order and public safety, as 
well as provide capabilities to our overseas contingency 
operations. Currently we have about 13,000 Air National Guard 
members deployed to Iraq, Afghanistan, and other regions 
throughout the world.
    At 16 alert sites, 3 air defense sectors, the Northern 
Command has about 1,200 Guard Airmen standing watch over 
American skies today--24 hours a day, 365 days a year. And, 
amazingly, about 75 percent of our deployed Airmen--75 
percent--are all volunteers, and about 60 percent are on their 
second or third tours and rotations to combat zones since 9/11.
    The face of aviation has certainly, irrevocably changed 
with the entry of remotely-piloted aircraft into the mainstream 
of our warfighter support and combat ops. The Air National 
Guard is on the frontline of this new and emerging capability. 
And our ability to meet the demand of Combatant Commanders, and 
warfighters and, as well, concurrently, the domestic response, 
requires a flexible National Airspace system that facilitates 
the training of our Airmen.
    Today, the Air National Guard operates Remotely Piloted 
Aircraft in six states and represents 25 percent of the current 
ops over in Iraq and Afghanistan. So, over the last 2 years, 
the Air Force has increased the number of remotely piloted 
aircraft fielded by about 330 percent. This rapid growth is 
outpacing, significantly, our training pipelines, and 
exponentially increasing our need for home station training. As 
more sites come online around the country, we will need 
effective and safe solutions to place these vehicles in 
transit, concurrently, with other platforms through the 
National Airspace System.
    The National Guard Bureau stands ready to work with the 
Federal Aviation Administration, the Air Force, State and local 
officials, as well as the universities here in North Dakota to 
examine solutions and meet the training needs of our Airmen.
    Thank you, sir, thank you both, and I look forward to any 
questions you might have.
    [The prepared statement of Brigadier General Rice follows:]

  Prepared Statement of Brigadier General L. Scott Rice, Co-Chairman, 
USAF/ANG National Airspace and Range Executive Council, National Guard 
                                 Bureau
    Chairman Dorgan, Ranking Member DeMint, distinguished members of 
the Subcommittee; I appreciate the opportunity to appear before you 
today to discuss the integration of unmanned aerial systems into the 
National Airspace. The National Guard continues to work to develop a 
safe and secure program for Predator and Global Hawk training within 
the continental United States.
    The Air National Guard anchors the Total Air Force team, providing 
trained and equipped units and personnel to protect domestic life and 
property; preserving peace, order, and public safety; and providing 
interoperable capabilities required for Overseas Contingency 
Operations. The Air National Guard, therefore, is unique by virtue of 
serving as both a reserve component of the Total Air Force and as the 
air component of the National Guard.
    By any measure, the Air National Guard is accessible and available 
to the Combatant Commanders, Air Force and our Nation's Governors. 
Currently, the Nation has over 13,000 Air National Guard members 
deployed in Iraq, Afghanistan, and other overseas regions. At 16 alert 
sites, 3 air defense sectors, and Northern Command, 1,200 Guard Airmen 
vigilantly stand watch over America's skies. Amazingly, 75 percent of 
our deployed Airmen are volunteers, and 60 percent are on their second 
or third rotations to combat zones.
    In the past year, Air Guard members helped their fellow citizens 
battle floods, mitigate the aftermath of ice storms, fight wild fires, 
and provide relief from the devastating effects of a tsunami. Early in 
the year, Guard members from Kentucky, Arizona, and Missouri responded 
to debilitating ice storms, which resulted in the largest National 
Guard call-up in Kentucky's history. Last spring, North Dakota, South 
Dakota, and Minnesota Air National Guard members provided rescue relief 
and manpower in response to Midwest flooding. In September, the Hawaii 
Air National Guard sent personnel from their Chemical, Biological, 
Nuclear, Radiological and High Yield Explosive Enhanced Response Force 
Package (CERFP), a command and control element, and a mortuary affairs 
team, to American Samoa in response to an 8.4 magnitude earthquake-
generated tsunami. These are just a few examples of how the Air Guard 
provides exceptional expertise, experience, and capabilities to 
mitigate disasters and their consequences.
    The face of aviation has irrevocably changed with the entry of 
Remotely Piloted Aircraft into the mainstream of warfighter support and 
combat operations. The Air National Guard is on the frontline of this 
new and emerging capability. Our ability to meet the demands of the 
Combatant Commanders, warfighters and growing domestic response needs 
require a flexible National Airspace framework that facilitates the 
training of our Airmen.
    Today, the Air National Guard operates Remotely Piloted Aircraft in 
six states and represents approximately 25 percent of the total Air 
Force capability. This critical Intelligence, Surveillance and 
Reconnaissance platform is in constant demand by our warfighters and 
its growth is a top priority for the Department of Defense. In fact, 
during the past 5 years, we have more than tripled our overall 
capacity. The Air Force continues to rapidly increase its Intelligence, 
Surveillance and Reconnaissance capability and capacity to support 
combat operations. Air Force Intelligence, Surveillance and 
Reconnaissance provides timely, fused, and actionable intelligence to 
the Joint force, from forward deployed locations and globally 
distributed centers around the globe. The exceptional operational value 
of Air Force Intelligence, Surveillance and Reconnaissance assets has 
led Joint force commanders in Iraq, Afghanistan, and the Horn of Africa 
to continually increase their requests for these forces. Over the last 
2 years, the Air Force increased the number of remotely piloted 
aircraft fielded by 330 percent. This rapid growth rate is outpacing 
our training pipelines and exponentially increasing our need for home 
station training. As more sites come online around the country, we will 
need effective and safe solutions in place for transiting National 
Airspace.
    Remotely Piloted Aircraft have a defined requirement and a need for 
equal access to the National Airspace System to meet mission training. 
The Federal Aviation Administration has defined what types of airspace 
these assets are currently able to operate within as restricted areas, 
warning areas and non-joint use Class D airspace. The preferred lateral 
dimensions for Remotely Piloted Aircraft Operating Space are 50 
nautical miles by 100 nautical miles with a minimum of a 5,000 foot 
altitude block below 18,000 feet. A minimum of five nautical mile 
``cylinder'' of airspace is required over Air-to-Ground Range impact 
areas for air-to-surface laser operations and weapons deliveries. 
Minimally, Remotely Piloted Aircraft can operate within a lateral 
dimension of 20 nautical miles by 20 nautical miles within a 5,000 foot 
altitude block below 18,000 feet. The Remotely Piloted Aircraft will 
use the Operating Space to train with other air and ground assets to 
accomplish the missions of both assets.
    We stand ready to work with the Federal Aviation Administration, 
the Air Force and state/local authorities as they examine solutions for 
meeting the training needs of our Airmen.
    The men and women of the Air National Guard greatly appreciate the 
cooperation and support you have provided in the past and look forward 
to working with you as we meet today's challenges.
    Thank you for the opportunity to be here today. I look forward to 
your questions.

    Senator Dorgan. General Rice, thank you very much.
    Let me go through a list of questions that I will try to 
put on the record, here, what I see as some of the 
difficulties.
    My understanding is that the FAA says the Unmanned Aerial 
Vehicles at Grand Forks cannot train in regular airspace, that 
would be the FAA's position--you correct me if I'm wrong, Mr. 
Krakowski, because of current regulations. The Special 
Operations indicates UAS operations should normally be 
conducted within restricted areas, that is, the FAA essentially 
says, ``If you're going to train, you have to train in 
restricted areas,'' and except for a small box near Camp 
Grafton for laser operations, which is a restricted area, I 
believe the FAA has largely opposed--up until this point--
establishing restricted air space.
    So, let me ask a question. My understanding now is the Air 
Force is seeking a box, 35-mile by 45-mile box, south of Camp 
Grafton--that's the Air Force current request. What I'm going 
to do is take this from the specific local to the national 
issue. But, my understanding is the Air Force currently is 
wanting a 35-mile by 45-mile box adjacent to Camp Grafton, 
south. Is that accurate?
    Brigadier General Rice. That's correct, Senator.
    Senator Dorgan. And let me ask you--that has come down 
substantially from what was originally requested, is that 
correct?
    Brigadier General Rice. Yes, sir. To the graphic, we have 
reduced from the northern box and transit areas, simply to the 
southern red square and transit to and from the base.
    Senator Dorgan. So that's the request, at this point?
    Brigadier General Rice. Yes, sir.
    Senator Dorgan. All right. And my understanding is the FAA 
has indicated that's too big, at this point, and the National 
Guard has said, anything smaller is not acceptable. And let me 
read if I might from a June 15 submission from the 119th, in 
Fargo, they indicated that the small restricted area, which is 
the area for hazardous, where lasers are--the laser activities 
are allowed--have said that, ``This would leave the wing in a 
position with little recourse to accomplish realistic training 
for a new mission that is Congressionally-mandated.'' So, what 
the 119th is saying is that this box of 35 by 45 miles is what 
is, what they believe is necessary for training, is that 
correct?
    Brigadier General Rice. Yes, sir, according to Wing 
Commander Rick Gibney, and the National Guard, that's our 
position. That picture on there, that 35 by 40 box with a small 
circle around Camp Grafton is the minimum amount of area.
    And this picture doesn't do justice to the request, because 
there's also a three-dimensional portion of that; it's a 4,000-
foot block that can be adjusted down, as well.
    But that is the minimum airspace from a God's-eye view, and 
then you can stratify it and look at the side. There's a 4,000-
foot block, up or down.
    Senator Dorgan. And where is the current restricted 
airspace that allows operations with laser training? There is--
that's a very small area; where is that?
    Brigadier General Rice. Currently, the restricted airspace 
is a very small circle inside of that circle which is in the 
box. There's a very small Army range down there, and we're 
expanding that circle. That circle that you can see, that's cut 
off at the top in the middle of the box, represents the minimal 
laser area required for remotely piloted aircraft training.
    Senator Dorgan. So, that is currently restricted airspace?
    Brigadier General Rice. No, that's not currently 
restricted. There's a very small area within that, that's 
currently restricted.
    Senator Dorgan. OK, inside of that.
    So, the question we're talking about here is the large--the 
larger box, which is substantially reduced from what was 
originally requested and required.
    Brigadier General Rice. That's correct, sir. It represents 
about an 80-percent reduction of our original request.
    Senator Dorgan. All right.
    Mr. Krakowski, my understanding is, you know, I wrote the 
provision that requires Section 935 of the National Defense 
Authorization Act. I included that provision which required DOD 
and FAA to develop a national solution for military U.S. access 
in the National airspace. It is, I guess, what caused the 
Executive Committee to be formed.
    In the legislation I had requested a report, April 2010, 
this year--in April of this year--that has not been submitted. 
But, I understand it will be submitted within the next month, 
or so, according to you, Mr. Ahern, is that correct?
    Mr. Ahern. Yes, sir.
    Senator Dorgan. All right.
    Now, having created an Executive Committee, having worked 
on this and understanding what I just described about the 
requirement for restricted airspace, of the 35 by 45, my 
understanding of the FAA's position, at this point, is they 
don't like restricted airspace, and don't want to create 
restricted airspace. And yet, in your testimony, you talked 
about how you might create restricted airspace.
    So, tell me, if you can, what's your--what the FAA's 
thinking is on creating restricted airspace, here?
    Mr. Krakowski. OK.
    Senator, I think it's a mischaracterization to say that we 
don't want to try to work a restricted airspace solution out 
here. We're ready to move on that path. We're waiting for those 
two issues that I talked about, the final concept of 
employment, and the safety study that needs to be submitted to 
us, so we can start moving that forward. Again, that is a one- 
to two-year process of public comments and all of the different 
regulatory things, and docket issues that you have to deal with 
to create that.
    Senator Dorgan. But how--sorry to interrupt you, but you're 
waiting for two things, when might you expect to receive that, 
before you begin a process that will take another couple of 
years, at least?
    Mr. Krakowski. I understand within a month. That's my 
understanding, although I'll ask the DOD to respond to that.
    Major General Gibson. Sir, it's my understanding it's ready 
to be submitted.
    Senator Dorgan. All right. Let me, then--I interrupted you, 
but can you tell us, if you begin to proceed in a rulemaking 
for restricted airspace, what's the minimum and maximum time 
you would expect that to take?
    Mr. Krakowski. One to two years, going through all of the 
different comment processes and docket processes that you have 
to go to do that.
    Senator Dorgan. Is it the desire of the FAA to move in that 
direction?
    Mr. Krakowski. Absolutely. We consider any submission as a 
request that we take seriously, and want to move forward 
through the process appropriately.
    In fact, I want to commend DOD and the Air Guard for taking 
that larger hunk of airspace that was first proposed, and 
scaling it down to something that they can use, without 
capturing too much airspace from the other users in the system. 
I think this is going to be helpful in moving this forward in a 
more positive vector.
    Senator Dorgan. And if restricted airspace is not 
accomplished by the time we have the bed-down of Global Hawks, 
or Predators, here, how would you anticipate the training and 
operations be made available in front of a time when restricted 
airspace is made available?
    Mr. Krakowski. I think I'll ask the DOD to talk about the 
training impacts.
    We can fly the missions now, using the Customs and Border 
Protection techniques to get up into what we call Class A 
airspace. There are abilities to actually do some training. 
Now, it doesn't satisfy the requested needs of the Air Guard 
and the Air Force and DOD at this time. Obviously, once we get 
the restricted airspace in place, we'll be able to do that.
    But, to the extent that some training could be done, 
literally, now if the machines were available, we think that we 
could start moving it forward.
    Senator Dorgan. You know, I've worked a lot with the FAA, 
including the new administrator, and have a lot of respect for 
the FAA. But, the one thing that seems to me to stand out with 
respect to the FAA is that generally it's very, very hard to 
meet time deadlines. And I understand, I mean, we're talking 
about safety and, you know, things that are very serious. But, 
one of my concerns is this--if it takes, let's say, 2 years to 
finish a rulemaking, then let it slide some, because almost 
everything slides, as far as I'm concerned, with the FAA. And 
you've got operations necessities here with Global Hawks or 
Predators, because they're here, and they don't have training 
capability. My guess is that I'm going to ask the Air Force, is 
there a disconnect, here, between one--we might get restricted 
airspace, when that might happen, and the rather minimum 
training capabilities that would exist under what Mr. Krakowski 
has just described?
    Major General Gibson. Sir, it's my understanding that as we 
proceed down that path either, and we term this ``restricted 
airspace,'' I think in the lexicon, it's some form of 
segregated airspace. It may end up being the term 
``restricted,'' it might be part of the TFR that DHS is 
currently flying under, but some sort of segregated airspace 
that we would be able to operate in. That, being tied to the 
DHS operational hours that they're doing in support of Homeland 
Security, or being required, initially, to go to 18,000 feet 
and above to get into the class of airspace, we have a number 
of concerns with that--both with the aircraft and its ability--
if it got into the area out there and had any kind of 
malfunction, or in fact, the weather dictates it. If we have to 
go to that altitude, given North Dakota's statistical review, 
we lose 63 percent of our ability to fly and train in that 
environment. Therefore, we're back to asking for lower 
altitudes to work into transit.
    Senator Dorgan. Would you, and perhaps General Rice and Mr. 
Ahern, describe in layman's terms for people who may wonder, 
how is it that you can put a vehicle up in the airspace with no 
pilot in it, anywhere, at any time, and feel that it's not 
going to diminish the safety with respect to general aviation 
and commercial aviation? So, I mean, I think I understand the 
answer to that question, but why don't you describe how that 
can be accomplished in a way that does not, in any way, 
diminish safety?
    Major General Gibson. Well, sir, first of all, I mean, 
there's always some level of risk involved in aviation, but we 
think this, again, with the experience that we've had, now, 
flying in fairly dense environments in our combat operations, 
mixing with other manned assets, I think one of the numbers we 
threw out were the numbers at Kandahar on an annual basis, 
approximates the Miami International, the number of traffic 
counts. And we move our unmanned systems in and out of that 
airfield without shutting it down, without any special 
segregation--they move like any other aircraft.
    You have several sensors with the vehicle and ability to 
identify where it is--just like any other aircraft, using 
transponders to air traffic control, and others you have the 
sensor ball that you can slew, and help clear the flight path. 
And we have, as we mentioned, some of the new technology with 
ground-based sense and avoid, we're actually able to pull into 
the operator's cockpit, if you will, those radar feeds to give 
him a sense of what is going on around him in 360 degrees. So, 
there are a number of ways----
    Senator Dorgan. You mentioned operations at Kandahar and 
that integrates UAVs directly into a very busy airport in which 
fighter planes and C-130s and all kinds of aircraft are coming 
in and out? I assume that we have learned an enormous amount, 
operating UAVs in that region?
    Major General Gibson. Yes, sir. Yes, sir.
    Senator Dorgan. And integrating it into airspace control?
    Major General Gibson. And again, we don't shut down and I 
would also offer, there is also some civil traffic that arrives 
in and out of that airfield routinely, as well. But we have 
learned a great deal there, and perhaps even more so as we move 
into a combat arena, where we're mixing these types of assets--
very close proximity to other aircraft that enter there--other 
manned fighter aircraft--and how to deconflict those and to 
maintain situational awareness.
    Senator Dorgan. Tell us, if you would, what, specifically 
do you need at this point? As a result of BRAC, we now have, in 
this region, Global Hawks and Predators coming. Homeland 
Security is here, of course. What do you need to make sure that 
you don't have a situation that you have aircraft that you 
can't train with? And when do you need it?
    Major General Gibson. Well, sir, I think we've stated along 
with the support of the Guard and as we have operated 
elsewhere, much like DHS, I think the first step with the FAA 
to meet everyone's safety concerns is some form of segregated 
air space. We kind of see this in kind of a three-phased 
approach, if you will, the first phase is to segregate them 
from other known traffic, so that we can guarantee some level 
of safety and security.
    The second portion is work with the FAA and our technology 
that we're developing forward, to use a ground-based sense and 
avoid, in other words the ability to see into that airspace 
with radar and help sanitize the airspace so we can deconflict 
conflicts early.
    And then as we move into the next generation system of air 
traffic control, beginning to put sensors--kind of a sense and 
avoid--airborne sense and avoid--system on these platforms that 
will give them, essentially, an end-game ability to avoid, even 
if it surpasses the operator.
    Senator Dorgan. And I asked, by when do you need these 
things in place, and are we on track to do all of that?
    Major General Gibson. Sir, I think we have a number of 
those in place already at some of our other locals. But, as I 
mentioned earlier, 2012 is our current plan for when we think 
we'll be prepared to fly predators out of Grand Forks--in early 
2012--so a little over a year from now.
    Senator Dorgan. Are we on pace to be able to meet the needs 
for training and for airspace necessary for that training at 
that point?
    Major General Gibson. Sir, that's kind of a speculative 
point, I would say we're certainly against the cusp of being 
able to make that happen as we've outlined our need and the 
concerns that the FAA has with their processes that they have 
to go through.
    Senator Dorgan. So, let me interpret what you--are you 
worried that we may not meet that test?
    Major General Gibson. Yes, sir. Yes, in fact I am, and I 
defer to local Guard position.
    Brigadier General Rice. Yes, sir. I definitely think at 
this point, we're late. If we look at January 2012 as our line 
in the sand when we require segregated airspace to do training, 
we're late to need.
    If we have a one- to two-year process prior to requesting 
our concept of employment to get a certificate of operation to 
operate, with a certificate of operation taking a period of 
time, as well, anywhere from a few months to 6 months to 9 
months, and then, prior to that, we have to have this one- to 
two-year process, we are late to need if you add those up 
sequentially.
    And sir, I would like to add one more piece. We talked 
about the minimum required airspace, and we kind of focused in 
on that box of 35 miles to 45 miles around the laser area and 
that laser circle. General Gibson alluded to the fact that 
there are those other two pieces for a total of three, that we 
need. Not only do we need the launch and recovery element and a 
piece of that, that has more flexibility than Customs and 
Border Protection as ours, during the operation, that half-moon 
around the base itself, but also the transit corridor that is 
below 18,000 feet, as another segregated piece of airspace to 
get to the box. So, each one of those components are essential 
to conduct training operations in North Dakota.
    Senator Dorgan. Mr. Ahern, did you want to add to that from 
the Pentagon's perspective?
    Mr. Ahern. I've been listening, and this is a good summary. 
I think we'll learn a lot about getting the job done, with the 
FAA--aside to General Gibson--there is an Air Force plan to 
move or to develop a ground-based sense and avoid system out 
here at Grand Forks, he's going to have to look into what its 
delivery kind of thing is, as we were talking earlier about the 
clearing out of the segregated area, the data on that.
    The other thing I would say is the transit corridor, as 
well as the operations in the terminal area, along with the 
framework path that we have set for ourselves, Senator. It is 
exactly along--the current paradigm is line of sight, chase 
aircraft, individuals down there with the idea of moving toward 
ground-based sense and avoid to enable us to clear out--but it 
takes time. I agree with you, and I agree with General Gibson--
that this technology, this way of operating is something that 
we can envision, but we're going to have to go carefully, to 
ensure that we don't get out ahead of what we can do. The fact 
that we have the COAA at El Mirage is just a great first step 
in the terminal area.
    Now, you go to Cherry Point, and as I understand it, we're 
looking at both the terminal area and small transit area, out 
to the restricted area. That alone will help us to move 
smarter, here, at Grand Forks as we move in that direction, but 
I am sensitive to the time. That we have to--but we have to 
respect the Nation's airspace. As General Schwartz said, 
``We're going to get to yes.'' And I understand the problem, I 
understand the opportunity--as I said in my opening remarks, 
we're beginning to learn to work with each other, the FAA, the 
DOD, closer. Of course, we have a long history with the FAA 
over the manned fixed aircraft and the rotary wing. But this is 
a different paradigm in the use of the airspace and developing 
that rhythm of working with each other is taking some time.
    But, we are getting that rhythm together. We have the COAs, 
we have a special COAA that--I mean, the new one out at El 
Mirage.
    So, to sum up--yes, I see where we are, I see where we're 
going, it fits into our framework. I understand the Grand Forks 
timing, and now we have to begin to work on getting there.
    Senator Dorgan. Yes. And actually, this then becomes a much 
larger issue when you talk about the Nation, the future----
    Brigadier General Rice. It's an opportunity.
    Senator Dorgan.--the, you talk about a third of the 
airplanes being ordered are UAVs, I mean, we understand that, 
you know, 20 years from now, we'll look in the rear-view mirror 
and see that the use of UAVs, integrated into the National 
Airspace has become routine and very safe.
    Mr. Krakowski, no one is pushing the FAA to do something 
that would diminish, in any way, safety in our Nation's 
airspace--that's not the point. The point today, however, is 
that if we are going to, as a result of BRAC, do realignments 
and missions, and so on, with respect to bases, this base is 
now, sees all of its tankers gone and we'll see Predators and 
Global Hawks arrive, and has a need, then, to develop a 
training space, restricted, segregated--it doesn't matter what 
you call it--that they have substantially diminished south of 
Devil's Lake.
    The question for me, and the reason I wanted to have this 
hearing is, are we moving along to accomplish what needs to be 
done by the time it needs to be done? Or, will we find 
ourselves in the year 2012 kind of scratching our heads trying 
to figure out, ``Well, how did we get all of that to happen? 
We've got the airplanes, and the crews, and so on, but we don't 
have the capability to do the kind of training we want.''
    I understand you can do ground observers, and chase 
aircraft and so on, but I think that is not something that the 
military believes would work, here, very effectively for the 
kind of robust training that is necessary.
    So, let me now turn to you and then I'm going to turn to my 
colleague, Congressman Pomeroy.
    Mr. Krakowski, you've just heard the circumstances of 
January 2012. It's now September 2010. And you just described 
to me, probably a 2-year--if everything works right, you said 
one to two, but I'm, having worked a lot with the FAA--you've 
described a 2-year circumstance that takes us into the end of 
2012, perhaps the beginning of 2013, and so it seems to me that 
there's a mismatch, here, of need and capability. Tell me how 
you see this, because you're working on the Committee to try to 
find a way to solve it.
    Mr. Krakowski. Yes, sir.
    First of all, I agree with General Gibson and his 
characterization that segregation is the first thing that's 
practical to do. Ground-based sense and avoid, and the radars 
that were talked about, is really where we really want to go so 
we don't have to confiscate airspace and limit operations. The 
faster that we can learn from El Mirage and do that, the faster 
we'll be able to move on a much more flexible plan, here at 
Grand Forks.
    The timeframe is tight. Candidly, we're inspecting some of 
the documents that we are expected to get this month, earlier 
in the year, and we feel that the delay in getting those 
documents has been hurtful to making the timeline, but we don't 
see any reason that once the machines come in here in 2012, 
that we're not going to be able to operate them, with the 
caveat that the restricted airspace does take that regulatory 
time to create. We're going to have to be patient with that, by 
law there's no practical way that we know of that we can 
accelerate that, except for us to work as hard as we can.
    Using the COAs, and if we can get some ground-sensed 
radars, or some ground-based sensing in a timely manner, as a 
mitigation, we can move very quickly. But, we're here and ready 
to support the mission to the maximum extent possible.
    Senator Dorgan. But, what I have heard the military say is 
that short of restricted or segregated airspace, the kinds of 
things you have done to accommodate Homeland Security's flights 
are not robust enough to allow the kind of training that's 
necessary in that interim period. That's what worries me.
    Mr. Krakowski. Right.
    Senator Dorgan. Do you understand that?
    Mr. Krakowski. I don't have a good, regulatory mechanism to 
confiscate or segregate airspace just by kind of imminent 
domain. We don't really do that, unless it's a national 
security issue, directly threatening the homeland, which is 
what we do with Temporary Flight Restrictions for the President 
and all sorts of issues like that. Because it is national 
airspace and we have other uses involved, we have to go through 
a process that respects all of those constituents.
    We've been working in a lot of areas of the country, and as 
I said, we have 140 DOD COAs right now, working in our national 
airspace to facilitate RPAs and unmanned aircraft. We'll keep 
working the issue.
    Senator Dorgan. Well, a report that's submitted to us under 
the provision I included in the Authorization Act, will that 
report give us timelines?
    Mr. Krakowski. The report is more of a national access 
plan, which is kind of our overall approach to getting 
integrated RPAs and unmanned aircraft into the system. That was 
really the sense of the report--and I think it speaks to around 
2018, as I recall the document.
    David?
    Mr. Ahern. It is phased, Senator--the 2018 that Hank 
mentioned is a full operational capability for the airborne 
sense and avoid. Back up, I think, 2013, is the ground-based 
sense and avoid, and come back and come back. As I mentioned 
earlier, there's a framework that we're working under, starting 
with a line-of-sight that you are familiar with, of course, and 
moving toward the, what we call dynamic access, with a file-
and-fly kind of thing, and it is a period of time.
    So, yes sir, there is a chart in there with a schedule, but 
it doesn't get to each one of the bases. But there is part of 
the report that does show the plans for the bases, as I 
mentioned earlier, in just 33, 35 states--a lot of states--so 
that is there.
    Senator Dorgan. Would you submit for me, as best you can, 
even if it's informally, a timeline for the creation of space 
here that's necessary? I'd like that submission if you would, 
and--yes?
    Mr. Krakowski. Yes, I mean,----
    Senator Dorgan. That's fair, I think.
    Mr. Krakowski.--once we get the documents that we're 
expecting this month, I think we'll have the foundation for us 
to be able to do that.
    Senator Dorgan. All right, and one last question and I'll 
turn to Congressman Pomeroy. General Gibson, you've just heard 
this discussion, what about 2012? It's now, let's say, 
September of 2012, you don't have restricted airspace, how--
tell me about your training operations with the fleet of 
Predators and Global Hawks here in this region.
    Major General Gibson. Well, sir, and I invite General Rice 
to follow up from a local perspective, but clearly, if you're 
unable to train in that mission set, then the overall readiness 
is not met and people are planning on that capability, both 
forward and, Heaven forbid, in a homeland support effort if it 
were to arise. So, I'm sure if we got to that point, first of 
all, I would state that it's not going to meet our needs, but 
that we would have to go to contingencies of moving those folks 
somewhere else to have an ability to train, to some extent, in 
an interim basis until we could get there, locally.
    Senator Dorgan. Yes. And that's not satisfactory, because 
we've had a lot of time, here, understanding what's going to 
happen at the Grand Forks Air Force Base. It's not as if BRAC 
happened yesterday.
    So, I think, two things--we need to, Mr. Krakowski, work 
with, you know, as quickly as we can to solve this problem, and 
I would guess, General Gibson, the military is going to have 
to--if there is a period of time here to patch training 
operations, you're going to have to find a way to do that.
    But this is, you know, it's disappointing, if we find 
ourselves in 2012 without the capability we need. And so, from 
this hearing, I hope--I'm going to await anxiously, the report 
that was required last April, and I--hopefully I get it next 
month--either later this month or next month, and then have 
some discussions again about where do we go from here, and how 
do we fix this, if there's a time that's not--in which the 
training capability doesn't exist, here.
    Major General Gibson. Sir, I just wanted to follow up that 
we both realize--between us and the FAA, and Mr. Krakowski and 
I do exchange cell phone numbers, we have been able to work 
through Haiti and other contingencies with some expedition and, 
in making it happen. So, we realize we have to partner, and we 
realize both of us have components of this portion that we need 
to solve, you know, on our side, if you will, before we are 
able to achieve solutions.
    So, I think with the right focus, I'm still optimistic that 
it can be done.
    Senator Dorgan. Congressman Pomeroy?
    Congressman Pomeroy. Senator Dorgan, I'm very pleased that 
you've brought the Committee here to have this very timely 
hearing, and I'm concerned. I've been disappointed with the 
slippage of timeline with the Air Force getting the RPAs here, 
to fully realize that we're on a timeline where, upon their 
delayed arrival, they won't be able to fly, it just raises real 
questions about whether or not the mission plan for the base 
will be operative, in any kind of timely way.
    The discussion across the panel tells me that in the 19 
months since we last met here, progress has been made on 
process, but I'm not seeing sufficient product out of the 
process to really move things along operationally. The--I think 
it's quite clear that there are a measure of interim 
accommodations from the FAA, but that they fall short of what 
the Air Force needs. So, we must not take much comfort in those 
interim arrangements, they don't get the job done.
    And I acknowledge, and I think it must be recognized, the 
Air Force has made some very serious accommodations to try and 
make this thing work. And in the meantime, as I understand it, 
the training need grows exponentially as the number of RPAs 
coming into the force structure continues to grow 
exponentially.
    So, we're left in the situation that we've got terrific 
assets at Grand Forks Air Force Base, we've got the assigned 
mission, we've got an urgent training need, but we're not on a 
timeline that's going to let this all work in an orderly way, 
because of, essentially, the inability to get this segregated 
airspace issue addressed at the FAA level.
    Now, Mr. Krakowski, I think Mr. Ahern used the words, this 
isn't your run-of-the-mill flight issue raised to the FAA. We 
are in a different paradigm. You are looking at things in the 
airspace that don't have people in them, and that has never 
been confronted before at the FAA. So, you've got to appreciate 
everything you've told us about the difficult--the importance 
of the questions before the FAA and the difficulty of the 
challenge--we have to accept that, and understand that.
    At the same time, we're talking about a one- to two-year 
comment period. Well, what do we--what does it take to make it 
1 year instead of 2 years? Obviously, have an awful lot to do 
with keeping us on a timeline to get us operational in early 
2012.
    Mr. Krakowski. Well, I think the approach is as soon as we 
get all of the required documentation, which we hope to get 
here, shortly, we'll move as aggressively as we can and try to 
move it as close to one year, as possible. I think that would 
be an effort that we would want to try to do, without question.
    In the meantime, knowing that we may not make that one year 
goal, because of those typical government issues, we do want to 
have the flexibility available for the Air Force to start 
flying in some fashion, like we have in other parts of the 
country.
    You've got our commitment to work both of those strains as 
diligently as we can.
    Congressman Pomeroy. But--I appreciate that, but I do think 
that we have to come away with this understanding from what 
we've heard exchanged across the panel, that those interim 
arrangements fall really far short. They're better than 
nothing, but they are far short of basically giving an ops 
tempo out there at the base that is really going to be 
required, given the kind of investment that you've got in 
equipment and manpower.
    Mr. Krakowski. Well, one thing that could shorten it up is 
if we could get a ground-based radar like we're testing at El 
Mirage, and where we've used in other places. If something like 
that could be made available earlier--and that's more on the 
DOD side in terms of supplying it, that would be helpful.
    Congressman Pomeroy. Yes.
    Mr. Ahern, what about that? We're getting into a real 
problem relative to training. Would that be some kind--would 
that be an infrastructure investment that might be considered 
to help us get through this period?
    Mr. Ahern. Sir, as I mentioned earlier, not only have we 
wanted, at El Mirage, but at different--same, but same kind of 
high-fidelity 3-D radar is going with the Marines at Cherry 
Point, and the Air Force at Canon, yet a third one.
    So, a volume search, air search radar--now, I'm going to 
defer to the FAA, because I'm getting out ahead of what I 
really know but--but air search--volume air search radars 
exist. And I don't think we have to make a new one for the 
UASs. The issue for the Air Force that we'll be working on is 
identifying one that's certified and what its job is, and 
positioning it--or several--in this area in order to do the 
terminal clearance first, and then the transit, because the Air 
Force clears out huge areas in Afghanistan and other operating 
areas, it's for Blue Force deconfliction, kind of thing. So, 
they know how to do it.
    So, to answer your question, I think that that is an avenue 
that we would go down to ensure that we get the ground search 
radar in here, and certified. And I think that--I hope I'm 
using the right word--if not certified, validated, it will be a 
certified radar, but validated for this position, here. What we 
expect if it's sited correctly, survey, it's traffic--I mean, 
it would be a period of time----
    Congressman Pomeroy. But that's important. If DOD makes an 
extra push on a range of equipment infrastructure, that might 
assist the FAA, if I'm hearing Mr. Krakowski right, in getting 
to yes on this airspace question.
    Mr. Ahern. And, I think--and I've talked to General Gibson 
about it, and it's something that is in the plan, already, the 
question is how to do it.
    Major General Gibson. Just of note, Congressman Pomeroy, 
we--the Air Force--saw this need some time back and we grabbed 
a--it's termed an ASR-11, a newer version of air traffic 
control radar that was headed to Korea, and we've actually 
redirected that to Grand Forks. It will be in place around the 
middle of summer 2012, sited and then will begin to--it's a 
little late to need, still, but then we'll begin siting it and 
doing testing with it in conjunction with the FAA to see how 
well it does, in fact, survey that airspace.
    There might be an opportunity to do an interim--a mobile 
radar that we could bring in that might be a part of this 
interim solution.
    Congressman Pomeroy. Couldn't it be accelerated? I mean, if 
you identified the equipment, why couldn't it be here, and 
operative before mid-2012?
    Major General Gibson. Sir, I really hesitate speculating 
whether one would be available. We have some that are in mind, 
as we said, we're doing tests in other locales already. We 
could take that for the record, to explore the possibility of 
being able to get one here earlier that's a mobile----
    Congressman Pomeroy. We've all just got to push, here. So, 
we try to get this 2 years down to 1 year, on the one hand, but 
you make Hank's job easier by trying to get this up here before 
mid-2012, and it seems to me that we could--if everyone is 
really pushing on these various fronts, we could make some real 
progress.
    General Rice, can you give us some better sense of the 
mounting training need that our Nation is experiencing, the 
utilization of RPAs in the field and who is operating them?
    Brigadier General Rice. Our--as you said, our training need 
is growing exponentially. And we're kind of coming to a point 
where technology and manufacturing of RPAs and those are ahead 
of our training pipeline.
    Congressman Pomeroy. That's right.
    Brigadier General Rice. So, really, our limiting factor, 
now, is our training airspace for the crews themselves.
    And so, right now we have 6 remotely piloted aircraft 
platforms, Predators in the state, in boxes, waiting to be 
opened up and put into the sky. And that's not the limiting 
factor. The limiting factor is actually the crews themselves. 
With a need to grow our capability, in theater, all of our 
crews are going right into operations, into combat operations. 
And they're flying right now, right here, today, in Fargo.
    And so, as those crews come off of a cycle, we don't want 
to have these crews in a constant combat mode, we take them out 
of the combat cycle--particularly Guardsman--and put them back 
into an operational Reserve status, get them into the training 
programs, that's where we foresee our cycle and our number of 
crews will start maturing, and we can normalize that cycle, 
somewhere around approximately a year from now to really get 
into having crews off of the operational schedule, into a 
training schedule in that spring of 2012. And a majority of 
them will start in 2012, in January.
    Congressman Pomeroy. I'm told we have that schedule 
normalized, as you say. We're asking an unacceptable level of, 
basically, combat duty by our Air Guard running these RPAs, 
right? I mean, I know that the tasking in Fargo has been very 
heavy, more than was originally anticipated, and I do worry 
about the human toll it's taking.
    Brigadier General Rice. Yes, sir. And we are certainly 
concerned about that. But, as you set a goal, set an objective, 
set an operational need for the military and when you look at 
the sacrifices our Active Duty and Guardsmen are doing, on the 
ground, right now, and you take an operation like the North 
Dakota Air National Guard and Army National Guard, and they 
say, ``Hey, this is easy to justify, it's easy for me to sit 
here in my home State and do an operational mission out of 
Fargo and say, I can see, real-time, my affect on this war 
effort,'' and that motivates people to keep going.
    It has been really pretty impressive to see the synergy 
that we have as a total force, between the Active and the 
Guard, to get to that point.
    Congressman Pomeroy. And you--it has been so impressive to 
watch. But, you know----
    Brigadier General Rice. Now, our role as leadership is to 
anticipate when we feel that the normalization, the leveling 
off, the growing state that we're in now, becomes a normal 
operation where we start to cycle people. We have enough people 
that we can start to do our rotations, start to do our cycles.
    Congressman Pomeroy. Because unlike active duty, the Guards 
stay. They're doing this for a much longer period of time, 
correct?
    Brigadier General Rice. That's correct.
    Congressman Pomeroy. And if you don't have other people to 
cycle through, they just keep on doing it.
    Brigadier General Rice. That's correct. And as we look at 
the strength of the National Guard, our cost-effectiveness, our 
strength is our experience, and our ability to take that 
experience, put it into an operational reserve, train in an 
airspace like this, in North Dakota, and then put them right 
back into the fight.
    Congressman Pomeroy. We want this base used, and used 
actively. It has a long history of playing an important role in 
our Nation's defense structure, and we look forward to it being 
fully utilized in this way in the near future.
    The--we also appreciate, in the broader sense, the 
important national contribution this base will use, will make 
when it's fully utilized, so we hope we quickly get there.
    General Rice, I would just tell you, General Sprynczynatyk 
recognized the service to the Global War on Terror of 300--more 
than 300--at the Air Guard in Fargo. We are very proud of the 
role the Air Guard has played in terms of the Global War on 
Terror and these, just tremendous airmen served our country so 
well, we're very proud of them.
    Mr. Chairman, that concludes my questions, thank you.
    Senator Dorgan. Congressman, thank you very much.
    Mr. Krakowski, let me try to clear up something, if I may. 
We were told by the FAA last month, as we were inquiring, that 
the FAA, by its own rule, cannot establish restricted areas for 
non-hazardous operations, and UAS flights are considered non-
hazardous. Therefore, the FAA said, ``We can only create 
restricted airspace, or approve restricted areas for laser 
operations,'' that's the very small box. Your testimony this 
morning seems to say something different than that, so explain 
to me what all of that means.
    Mr. Krakowski. Well, we understand that there's a desire to 
have laser activity expanded in that box, as I understand.
    Major General Gibson. Not the impact point, but the ability 
to maneuver nearby.
    Mr. Krakowski. Right, right--which we think would give us 
sufficient justification to consider that.
    Senator Dorgan. So, the 45 by 35-mile box that the military 
now says it needs for training, is an area that you can, by 
your own rule, proceed to establish as a restricted area?
    Mr. Krakowski. We are interested in trying to move the rule 
forward. Now, we'll get public comments, we'll go through all 
of the processes, I can't guarantee what the outcome's going to 
be, but we think we can actually go ahead and try to move it 
forward.
    Senator Dorgan. But it is different than what the staff of 
our Subcommittee was told a month ago. We were told that was 
not a possible solution.
    Mr. Krakowski. We're willing to move forward once we get 
the documentation this month.
    Senator Dorgan. All right, so maybe we're making some 
progress. I just--I think I understand what you're now saying 
on the record, but as I said, that's different than what we 
were told a month ago.
    Mr. Krakowski. If I may, Senator.
    Senator Dorgan. Yes, please.
    Mr. Krakowski. You know, this is a dilemma not just for DOD 
and the Air Force, but for us, as well. We've never had to do 
things like this with the airspace before, so we're trying to 
learn, we have an ExCom set up, Dave and I and the rest of the 
organizations. For example, NASA and DHS are part of the ExCom, 
to try to figure out what exactly to do with these things. And, 
as Mr. Ahern and I were talking earlier this morning, we're 
going to have to be creative, I think, moving forward.
    Senator Dorgan. But, we have done some of this before. I 
mean, I did some small amount of flying earlier in my life, and 
I've flown in what are called ``oil-burner routes'' that are 
designated in North Dakota and flown out of a steep turn as I 
was learning to fly, to find a B-52 is bearing down on me, and 
I was in the wrong place, I guess. You know, the fact is, we 
have established areas with training capability--low-level 
training capability, B-52s and in the old days they were called 
``oil-burner routes'' I think, I don't know what they're called 
now.
    And I understand there are differences now in that there's 
no one in the cockpit of this airplane. On the other hand, this 
aircraft, in most cases, is probably even more sophisticated 
and has substantially more sophisticated sensors to be able to 
understand what is in its environment than that big old B-52 
had.
    So, at any rate, I am not diminishing the difficulty, 
because this has to be something we do nationally. On the other 
hand, I'm very interested in trying to match up our needs and 
the ability of the FAA to act in a way that's responsible to 
meet our training needs, here. Because as we move toward 
greater use of Unmanned Aerial Systems, this is going to be a 
center of that--a significant center. Homeland Security, Grand 
Forks Air Force Base, The Center for Earth and Space Science, 
and the UAV research--this is going to be one of those centers, 
and I, you know, I'm interested in the national issue, but I'm 
especially interested in finding out that we're not stuck up 
here, trying to figure out, ``Well, now we have airplanes in 
boxes, we put them together, but no place to train them because 
we weren't able to figure out how hand-in-glove to work with 
the FAA to address an issue of a 35 by 45-mile airspace for 
some training.''
    I think we've learned some things this morning that will be 
helpful as we proceed, and I'm going to push very hard in the 
coming months to get that report, make sure we understand what 
is possible at the FAA and you will submit to me timelines, I 
believe, with the Air Force based on what you've just described 
on this particular issue, as well.
    Governor Hoeven had requested that General Sprynczynatyk 
read a letter. If you would be willing, General, to summarize 
that letter for us, I'd be happy to have you read that into the 
record at this point.
    General Sprynczynatyk. Good morning, Senator Dorgan, 
Congressman Pomeroy, it's a pleasure to be here today 
representing Governor Hoeven. The Governor has expressed his 
support for FAA's integration of military Unmanned Aerial 
Systems into the national airspace at Grand Forks Air Base.
    North Dakota serves as an ideal testing ground for a 
variety of UAS pilot projects. For example, the United States 
will need to determine how unmanned aviation can be conducted 
safely in national airspace.
    North Dakota would be an excellent location for pilot 
projects demonstrating that UAS operations and private and 
commercial aviation can co-exist in a safe and efficient 
manner. In addition, our airspace could provide opportunities 
for testing of small-scale commercial UAS operations, such as 
the use of UAS technology to aid the agricultural processes. In 
order to conduct these pilot projects, the current National 
Airspace infrastructure in North Dakota would have to be 
modified.
    One of the key factors behind the rapid growth of UAS 
programs in North Dakota, is the fact that our State possesses 
one of the Nation's premiere aerospace schools. The John D. 
Odegard School for Aerospace Sciences at the University of 
North Dakota in Grand Forks is home to the UAS Center for 
Education, Training and Research, which currently possesses 7 
active COAs located in 5 locations for unmanned flight. This 
program produces well-trained graduates ready to operate 
unmanned aircraft, providing a labor source for UAS operations 
conducted within North Dakota.
    There are already a number of UAS Operations being 
conducted in North Dakota. For example, the Department of 
Homeland Security's Customs and Border Protection agency is 
flying the Predator B from Grand Forks, providing for homeland 
security along the Canadian border. The North Dakota Air 
National Guard, based out of Fargo, is currently conducting 
Predator flights in the Middle East, amassing over 50,000 
flight hours with operators working out of an operations center 
located in Fargo.
    UAS operations will continue to expand in North Dakota if 
Grand Force Air Force Base is scheduled to receive a number of 
Global Hawks, which will be deployed overseas, as well. An 
authorized Launch and Recovery Element for the North Dakota Air 
National Guard at Grand Forks is scheduled for flight 
operations in 2012. Training missions for these operations will 
increase the demand for North Dakota airspace; therefore it is 
important to determine how airspace should be allocated in the 
future.
    Ensuring there is ample training space within North Dakota 
will be critical to the future success of these programs.
    I ask that the Subcommittee consider the opportunities for 
Unmanned Aerial Systems development in North Dakota, and find 
an appropriate way to integrate UAS into the National Airspace 
System.
    Senator Dorgan. General Sprynczynatyk, thank you very much, 
and thanks for your service, as well.
    Let me say to the witnesses, first of all, to my 
colleagues, Congressman Pomeroy, thanks for your continuing 
work on this issue. Gael Sullivan is the Staff Director for the 
Commerce Committee Aviation Subcommittee, Gael is back here, 
and Gael, thank you for the work that you do. And Gael will 
follow up continuously with this hearing. And Brian Moran, who 
works on these issues in my staff, is behind me and Jeff 
Carter, who works with Senator Conrad, is behind me, as well. I 
want to thank them for their work.
    And let me just make one final comment, if I might. First 
of all, I appreciate, very much the witnesses coming to Grand 
Forks, you've travelled some distance to do this, but this is 
important. We care, very much, about making things happen 
rather than letting things happen. And, I don't mean to--well, 
yes, I do--I was going to say, I don't mean to be critical of 
bureaucracies, but the fact is the Defense Department is one of 
the biggest bureaucracies in the world, and the FAA, while 
smaller, is every bit its equal.
    [Laughter.]
    Senator Dorgan. And the reason I say that is, bureaucracies 
are often saddled by their own harnesses. And sometimes it's 
required to be able to strip through that and make decisions 
that are thoughtful decisions in a timeline that is reasonable.
    A year ago, early 2009, we held a meeting, here, in Grand 
Forks and the purpose of that meeting was to talk about what 
needed to be done and how to get it done, and that was February 
of 2009. And I think what we have seen between then and now, a 
year and a half--and I'm not suggesting nothing has been done, 
but I do think that we're setting ourselves up for a problem, 
unless between now and the time that we have the fleets of UAVs 
here, needing training capabilities, unless between now and 
then we're able to find a new gear and new cooperation between 
the FAA and the military, I think we will run into a problem. 
And a problem that should not exist, because we see it ahead of 
us, let's fix it before we get there.
    Mr. Krakowski, you and Mr. Allen are critical to this, 
along with your administrator, and Mr. Ahern, General Gibson, 
General Rice, you have a stake in this, as well.
    The fact is, Congressman Pomeroy and I have watched a lot 
of different Federal agencies work together. Sometimes they 
never even touch each other, let alone put their hands together 
and decide they're going to do something and accomplish 
something by the time needed. But, both the Defense Department 
and the FAA have the capability to make this work. And I hope 
today's hearing establishes the urgency with which this gets 
done.
    So, I want to thank all of you for being here, and thank my 
colleague, Congressman Pomeroy.
    This hearing is adjourned.
    [Whereupon, at 9:30 a.m., the hearing was adjourned.]
                            A P P E N D I X

              State of North Dakota, Office of the Governor
                                                 September 13, 2010

    Comments from Governor John Hoeven to the Senate Subcommittee on 
Aviation Operations, Safety and Security hearing on ``The Integration 
of Unmanned Aircraft Systems (UASs) into the National Airspace System 
(NAS): Fulfilling Imminent Operational and Training Requirements.''

    I am writing to express my support for Federal Aviation 
Administration (FAA) integration of military Unmanned Aircraft Systems 
(UASs) into the National Airspace System (NAS) at the Grand Forks Air 
Force Base. This plan would allow UAS access to training areas and 
Class A airspace by modifying airspace design and flight rules, while 
implementing upgraded Air Traffic Control (ATC) radar to monitor and 
direct UAS traffic. These changes are necessary to satisfy the 
operational and training needs of the Global Hawk and Predator UASs 
that are scheduled to be based at Grand Forks Air Force Base. I hope 
that this hearing will help clarify the status of the plan to integrate 
UASs into the National Airspace, identify issues that arc delaying 
implementation of the plan, and detail any additional changes to 
airspace design and flight rules that are being considered.
    North Dakota has the potential to serve as an ideal testing ground 
for a variety of UAS pilot projects. For example, the United States 
will need to determine how unmanned aviation can be incorporated safely 
into the national airspace. North Dakota would be an excellent location 
for pilot projects demonstrating that UAS operations and private and 
commercial aviation can co-exist in a safe and efficient manner. In 
addition, our airspace could provide opportunities for testing of small 
scale commercial UAS operations, such as the use of UAS technology to 
aid the agricultural process. In order to conduct these pilot projects, 
the current National Airspace System infrastructure in North Dakota 
would have to be modified.
    One of the key factors behind the rapid growth of UAS programs in 
North Dakota is the fact that our state possesses one of the Nation's 
premiere aerospace schools. The John D. Odegard School for Aerospace 
Sciences at the University of North Dakota in Grand Forks is home to 
the UAS Center for Education Training and Research, which possesses 7 
active Certificates of Authorization located in 5 locations for 
unmanned flight. This program produces well-trained graduates ready to 
operate unmanned aircraft, providing a labor source for UAS operations 
conducted within North Dakota.
    There arc already a number of UAS operations being conducted in 
North Dakota. For example, the Department of Homeland Security's 
Customs and Border Protection agency is flying the Predator B from 
Grand Forks Air Force Base to provide for homeland security along the 
Canadian border. The North Dakota Air National Guard, based out of 
Fargo, is currently conducting Predator A flights in the Middle East, 
amassing over 50,000 flight hours with operators working out of an 
operations center located in Fargo.
    UAS operations will only continue to expand within North Dakota. 
The Grand Forks Air Force Base is scheduled to receive a number of 
Global Hawks, which will be deployed overseas as well. An authorized 
Launch and Recovery Element for the North Dakota Air National Guard at 
Grand Forks is scheduled for flight operations in 2012. Training 
missions for these operations will increase the demand for North Dakota 
airspace; therefore it is important to determine how airspace should be 
allocated in the future. Ensuring there is ample training space within 
North Dakota will be critical to the future success of these programs.
    I ask that the Subcommittee consider the opportunities for UAS 
development in North Dakota, and find an appropriate way to integrate 
UASs into the National Airspace System.
            Submitted:
                                               John Hoeven,
                                                          Governor.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John Ensign to 
                             Hank Krakowski
    Question 1. We know that some of the large mirror complexes can 
cause a great deal of glare and may have an effect on flash blinding 
pilots. What would that do to a Remotely Piloted Aircraft (RPA) using 
camera and sensor packages? What impact would large concentrated solar 
towers have on the cameras and sensor packages of RPAs?
    Answer. The Federal Aviation Administration (FAA) Unmanned Aircraft 
Systems Group has not received any reports of ``flashblinding'' 
occurring. Discussions with proponents of these complexes indicate that 
flash could briefly render the camera portion of the aircraft sensor 
unusable. Other sensor packages, such as infrared, may or may not be 
affected, depending upon the type of sensor at issue. Currently, the 
FAA is not authorizing the use of any onboard sensors as a means to 
meet the Title 14, Code of Federal Regulations, Part 91.113. As such, 
any ``flashblinding'' would most likely have minimal impact on National 
Airspace System (NAS) operational safety requirements.

    Question 2. Has the FAA conducted any detailed studies on how wind 
farms, solar arrays, or concentrated solar towers would impact RPAs or 
manned military aircraft operating both during the day and at night?
    Answer. The FAA has not conducted any studies of how wind farms, 
solar arrays or concentrated solar towers would impact RPAs or manned 
military aircraft operating during the day or night.

    Question 3. Has the FAA conducted studies the impact of wind farms 
on the ability of air traffic control radars to track RPAs and manned 
aircraft entering and exiting military training airspace?
    Answer. The FAA has not conducted any specific studies addressing 
the impact of wind farms on the ability of radar to track unmanned 
aircraft entering or exiting military training airspace.
    The FAA primary long range radars can not presently distinguish 
between the blade flash of the wind turbine and actual aircraft in the 
same azimuth and range. The moving target indicator processing of the 
radar is used to determine stationary objects from those in motion, 
which are passed on for further processing. The blade flash of the 
turbine, in motion, is identified the same as an aircraft in motion and 
passed through the radar system for additional processing.
    The FAA is working with the U.S. Air Force to investigate 
mitigation options to alleviate the impacts of the wind turbines on 
radar. We have optimized radar sites using the existing capabilities to 
acquire the best performance with the processing constraints currently 
available. We are investigating the possibility of introducing 
auxiliary processing that may be able to improve the radar performance 
in the wind turbine impacted areas. We are also jointly researching 
other types of radar systems than those presently in use for FAA 
aircraft target detection to determine if the technology currently 
exists for properly dealing with the impacts to radar from the wind 
turbine farms.

    Question 4. When approving large scale solar towers does the FAA 
consider airspace safety in its approval process?
    Answer. Yes, airspace safety is considered in the FAA approval 
processes.

    Question 5. When approving large scale solar towers does the FAA 
consider lasers emanating from them that could impact airspace safety?
    Answer. No, aeronautical studies conducted under Title 14, Code of 
Federal Regulations, Part 77 evaluate the impact of the structure, but 
do not include for study of anything that may emanate from the 
structure such as glare, glint, or gasses.

    Question 6. When approving large scale solar towers does the FAA 
consider glare emanating from the towers that could impact pilot 
safety?
    Answer. No, aeronautical studies conducted under Title 14, Code of 
Federal Regulations, Part 77 evaluate the impact of the structure, but 
do not include for study of anything that may emanate from the 
structure such as glare, glint, or gasses.
    Current FAA guidance does not address concentrated solar power 
(CSP) installations that use large reflective surfaces in massive 
arrays to focus the sun's energy on a trough or tower collection/
generation system. Pending guidance is limited to non-reflective PV 
solar technology applied on a relatively small scale at airports. There 
is inadequate science on reflectivity and it will therefore take some 
time to establish a basis or standard for evaluating concentrated solar 
power facilities and their potential glint and glare effects on pilots.

    Question 7. If the FAA does consider factors that could blind a 
pilot (civilian or military) such as lasers, shouldn't it hold that the 
FAA should consider other factors that could blind a pilot or white out 
an RPA sensor package such as glare?
    Answer. Title 14, Code of Federal Regulations, Part 77 does not 
include for study of anything that may emanate from the structure such 
as glare. While the FAA does not have any standards to study glare, the 
agency is currently forming a team to study the effects of reflectivity 
on pilots.

    Question 8. Shouldn't the FAA consider glare with the same rigor it 
does lasers, as both are a version of light amplification and both 
could blind a pilot?
    Answer. Title 14, Code of Federal Regulations, Part 77 does not 
include for study of anything that may emanate from the structure such 
as glare. While the FAA does not have any standards to study glare, the 
agency is currently forming a team to study the effects of reflectivity 
on pilots.

                                  <all>

</pre></body></html>
